HHS/OIG-Audit-"Review of Medicare Part A Administrative Costs Fiscal Years 1997-1999 Trigon Blue Cross Blue Shield"(A-03-00-00002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part A Administrative Costs Fiscal Years 1997 - 1999 Trigon Blue Cross Blue Shield," (A-03-00-00002)
September 7, 2001
Complete
Text of Report is available in PDF format (1.48 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report presents the review of $39,446,396 of Part A administrative costs including transition and termination costs
claimed by Trigon Blue Cross Blue Shield for the period October 1, 1996 through September 30, 1999. We identified and recommended
for adjustment $3,464,705 in costs claimed by Trigon that were unallowable, unreasonable, unallocable or unapproved by
CMS.